,"

"l23
UKITED STATES or AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON , D. C. 20580

January 19 ,

1996

Representative Lucien A. DiMeo
One Hundred and Third District
531 Wintergreen Avenue

Harnden , CT 06514
Dear Representative DiMeo:

Thank you for your lettcr dated January 5 , 1996 , concerning your proposed legislation on
pre-nced insurance in the upcoming session of the Connecticut General Assembly, to bettcr
protect thc consumcr. In your letter , you proposed an escrow agreement made betwccn thc
funcral home and the escrow agent; expanding the languagc in the statement of funeral goods and
services seleetcd , required by the Commission s Funeral Rule , 16 e.F. R. Part 453; and a trust
document between the funeral home and the consumer. You requested my opinion as to the two
proposed doeumcnts , which you enclosed. You also requested my opinion as to whether there
ean be changes made to the statement of goods and services , and if I fecl this is the best way to
protect the consumer.

The Commission is charged with enforcement of the Federal Trade Commission Act , 15
41
("FTC Act ), which prohibits unfair and deceptive acts and practices , as well
e.
as with enforcement of trade regulation rules enacted pursuant thereto , such as the Funcral Rule.
As to the two documents you enclosed , I can express no opinion on thcm , since they concern the
business of insurance , and the Funeral Rule expressly states that " this Rule shall not apply to the
business of insurance or to acts in the conduct thereof." 16 e.F. R.
453. 8 (c). Furthermore
under the McCarran- Ferguson Act , 15 U. C.
lOll , the FTC Act does not apply to the business
of insurance or to acts in the conduct thereof. 15 u.se.
1013(3)(a).
As to your suggestion about expanding the language or making other changes in the
statement offuneral goods and services selected , it is unlikely that the Commission would make
any such changes soon. The Funeral Rule underwent a comprehensive review beginning in

1988 , and culminating in a revised version of the Rule which became effective July 19 , 1994.
This time frame suggests the cumbersome nature of rulemaking and rule review proccdures

which we must follow.

However , additions to the statement of funeral goods and services selected could be made
voluntarily by funeral providers, or by state requirement , without violating the Funeral Rule.
The Rule allows funeral providers to give persons any other price information , in any format , in
addition to that required by the casket , outer burial container , and general price lists so long as
the statement required (of funeral goods and services selected) . .. is given when required by the
rule." 16 e.F. R.
453. 2(b)(6). In addition , the procedure for state exemptions from the Funeral

Rule implies that a state could enact any requirement which applies to any transaction to which
the Funeral Rule applies , that " affords an overall level of protection to consumers which is as
R. ~ 453. 9(b). I have
great as , or greatcr than , the protection atIorded by this rule." 16 C,
enclosed a copy of our compliance guidelines , including the Rule and sample forms , for your
reVIew,

Please be advised that the views expressed in this letter are those of the FTC staff. They
have not been reviewed , approved or adopted by the Commission , and they are not binding upon
the Commission. However , they do reilect the opinions of those staff members charged witb
enforcement of the Funeral Rule. I hope that this information is helpfil1 to you.

tl flw
Thomas A. Cohn
Funeral Rule Enforcement StatI
Enclosure: 8/95 Funeral Rule Guide

